ES, IG-98-020, Consolidation Decision for Secure Supercomputers
CONSOLIDATION DECISION FOR
SECURE SUPERCOMPUTERS
IG-98-020
Executive Summary
Introduction
This report summarizes the results of our review of the cost-benefit
analysis, used by the Consolidated Supercomputing Management Office (CoSMO),
to support a consolidation of NASA's secure supercomputers.  CoSMO is
located at the NASA Ames Research Center (ARC) and is responsible for
ensuring the cost-effectiveness of NASA's secure supercomputing systems.
Objectives
The overall objective of the audit was to determine whether CoSMO's
cost-benefit analysis adequately supported the planned supercomputer
consolidation.  Specifically, we performed the audit to determine whether
(1) cost and other related data identified for the analysis were current,
accurate, and complete; (2) appropriate analytical methods and assumptions
were applied to the data; and (3) claimed benefits were realistic and
properly valued. A detailed description of the scope and methodology used
for this audit is in Appendix C.
Audit Results
The cost-benefit analysis prepared by CoSMO personnel did not adequately
support the decision to relocate secure supercomputing from the Langley
Research Center (LaRC) to the Naval Oceanographic Office (NAVO) at the
Stennis Space Center.  CoSMO personnel had not estimated the costs of
bartering items (satellite imagery data) in exchange for NAVO providing
secure supercomputer services to LaRC.*  Also, CoSMO had not adequately
supported its cost-benefit analyses and consolidation alternatives.  CoSMO
personnel had gathered only partial or no data to support the conclusions
reached for the consolidation alternatives considered.  As a result, the
conclusions drawn by the analyses may not be correct and erroneous decisions
can be made concerning supercomputer consolidation.
Recommendation
We recommended that the CoSMO Director use only current, accurate, complete,
and adequately documented data in consolidation decisions.
Management's Response
Management concurred with the recommendation.  We will assess the adequacy
of the data CoSMO will use to support its planned direct procurement of
supercomputer services.
__________
*Subsequent to issuance of our draft report, CoSMO decided not to pursue
bartering and reimburse NAVO directly for supercomputer services.  Therefore,
we deleted our recommendation related to the bartering arrangement.